June 7, 2001

SUZANNE F. MEDVIDOVICH
SENIOR VICE PRESIDENT, HUMAN RESOURCES

CRAIG G. WADE
VICE PRESIDENT, WESTERN AREA OPERATIONS

SUBJECT: Audit Report - Management Practices in the Alaska District
         (Report Number LB-AR-01-019)

This report presents the results of our audit of personnel management practices in the
Alaska District (Project 0OJA003LBOOO). The audit was conducted in response to a
congressional inquiry that included allegations of nepotism, intimidation, and wasteful
staffing practices. The primary objective of the audit was to determine whether the
allegations had merit.

Our audit revealed that some of the allegations regarding nepotism, intimidation, and
wasteful staffing practices in the Alaska District had merit. While we did not
substantiate the allegation of nepotism, we found there was an appearance of nepotism.
We also found evidence to support the allegation of intimidation at the Wasilla Camer
Annex during the week of the route inspections and for a short period following the route
inspections. However, we found no evidence to support the allegation that the Human
Resource manager was not responsive to employees' allegations of nepotism,
intimidation, and wasteful staffing practices. Furthermore, we found the staffing
practices during the route inspections at the Wasilla Carrier Annex were not wasteful.

We recommended that management consult with the Law Department regarding
whether the transfer of relatives falls within the statutory nepotism prohibition and that
guidance be provided on how to mitigate the appearance of improprieties when dealing
with the employment of relatives to include appointment, transfer, and promotion. We
also recommended that management establish and publicize procedures to require
higher-level approval for transfers and promotions of relatives. Additionally, we
recommended management monitor the workplace climate at the Wasilla Carrier Annex
and implement a training program for management on how to resolve grievances.

Management in the Western Area did not concur with recommendation three relating to
formally establishing and publicizing procedures to require higher-level approval of
transfers and promotions of relatives of management officials. While field management
disagreed with this recommendation, we consider it resolved because headquarters
Human Resources officials agreed to revise and update the guidance on nepotism
based on this report. However, management indicated they concurred with our
remaining four recommendations and their actions taken and planned are responsive to
those recommendations. Management's comments, in their entirety, are included in the
appendix of this report.

The Office of Inspector General (OIG) considers recommendations 1 and 2 as
significant and, therefore, require OIG concurrence before closure. Consequently, the
OIG requests written confirmation when corrective action is completed. These
recommendations should not be closed in the follow-up tracking system until OIG
provides written confirmation that the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff during the audit.
If you have any questions, please contact Joyce Hansen, acting deputy assistant
inspector general. Oversight and Business Evaluations, or me at (703) 248-2300.



Ronald K. Stith
Assistant Inspector General
 for Oversight and Business Evaluations

Attachment

cc: Patrick R. Donahoe
    Suzanne H. Milton
    Anthony J, Vegliante
    Bill R. Fetterhoff
    John R. Gunnels
Management Practices In the Alaska District             LB-AR-01-019



                                    TABLE OF CONTENTS

Executive Summary                                           i

Parti

Introduction                                               1

   Background                                              1
   Objectives, Scope, and Methodology                      2
   Prior Audit Coverage                                    3

Part II

Audit Results                                              4

   Allegations of Nepotism                                 4
   Recommendations                                         6
   Management's Comments                                   6
   Evaluation of Management's Comments                     6

   Allegations of Intimidation                             9
   Recommendations                                         12
   Management's Comments                                   12
   Evaluation of Management's Comments                     13

   Intimidation and Work Climate in Anchorage              14
   Actions Taken by Human Resources Manager                15
   Allegations of Waste in Route Inspection Staffing       16

Appendix. Management's Comments                            17
Management Practices in ttie Alaska District                                          LB.AR-01-019



                                     EXECUTIVE SUMMARY

 introduction                    The Office of Inspector General (OIG) initiated this audit in
                                 response to a congressional request. Specifically, a
                                 congressional representative requeste^h^Ol^onduct a
                                 review of allegations that the B H H H J H H H I i
                                 inappropriately transfenred, placed, and promoted his son;
                                 that management used severe intimidation tactics and
                                 wasteful staffing practices during a route inspection at the
                                 Wasilla Carrier Annex; and that the H H I H ^ I H I
                                 H ^ ^ l ^ was not responsive to employees making these
                                 allegations and did not report the matters through proper
                                 channels.

 Results in Brief                Our audit revealed that some of the allegations regarding
                                 nepotism, intimidation, and wasteful staffing practices in the
                                 Alaska District had merit. While we did not substantiate the
                                 allegation of nepotisminregard^^lje transfer, placement,
                                 and promotion of the H t ^ ^ ^ ^ l son, we found there
                                 was an appearance of nepotism. We also found evidence
                                 to support the allegation of intimidation during and after the
                                 week of route inspections at the Wasilla Carrier Annex. In
                                 Anchorage, the majority of managers, supervisors, and craft
                                 employees interviewed had not personally experienced or
                                 witnessed intimidation in the workplace. Additionally, these
                                 individuals believed that the work climate was good.
                                 However, those individuals that experienced intimidation in
                                 the workplace attributed the intimidation to aggressive
                                 efforts to achieve performance goals.

                                 We found the staffing practices during the route inspections
                                 at the Wasilla Carrier Annex were not wasteful.
                                 Management agreed, during our audit, to increase the
                                 number of supervisors and managers in the Alaska District
                                 who are trained on route inspection practices. This training
                                 effort should help to limit the participation of individuals from
                                 other districts during future route inspections. This training
                                 was recently completed and route inspections are currently
                                 ongoing in the district using Alaska personnel.

                                  We found no evidence to support the allegation that the
                                  m i ^ ^ ^ ^ H m was                interested In assisting
                                  employees with regard to complaints of nepotism,

  The                            Is also the         for the Alaska District.
Management Practices In the Alaska District                                       LB^R-01-019



                                intimidation, and waste. The
                                responded in writing to union officials, which demonstrated
                                he took the allegations concerning the Wasilla route
                                inspections and the transfer, placement, and promotion of
                                the ^ ^ ^ ^ ^ ^ ^ ^ B son seriously, and was interested in
                                clarifying the actions taken with regard to these matters.

 Summary of                     We recommended the senior vice president. Human
 Recommendations                Resources, consult with the Law Department regarding
                                whether the transfer of relatives falls within the Postal
                                Service and statutory nepotism prohibition and advise us of
                                the Law Departinent's opinion. We further recommended
                                that guidance be provided on how to mitigate the
                                appearance of impropriety when dealing with the
                                employment of relatives. We recommended that the vice
                                president. Western Area Operations, formally publicize and
                                establish procedures to require higher level approval for
                                transfers and promotion of relatives. In addition, we
                                recommended that quarteriy follow-up interviews with
                                 employees at the Wasilla Carrier Annex be performed to
                                continue efforts to improve the work environment at this
                                facility. We also recommended training for management,
                                which focuses on human relation skills, conflict
                                 management, and managing change in tiie workplace.


  Summary of                     Management indicated that Employee Resource
  i^anagement's                  Management was cun'ently revising policies and procedures
  Comments                       that provide guidance on the topic of employment of
                                 relatives. Management also noted that the Law Department
                                 was reviewing the language dealing with the employment of
                                 relatives to ensure that the policy addresses all applicable
                                 statutory language on this topic. Management stated that
                                 the final draft policy would be placed into the clearance
                                 process, which takes 90 days.

                                 Management determined the current "Restrictions on
                                 Employment of Relatives" in the Personnel Operations
                                 Handbook EL-311 provided sufficient guidance and
                                 Instruction to field operations on the employment of
                                 relatives. Management indicated that headquarters Human
                                 Resources should be the appropriate name for providing the
                                 appropriate guidance. As a result, management indicated
                                 they would not formally establish and publicize procedures
                                 to require higher-level approval of transfers and promotions
                                 of relatives of management officials. With
Management Practices In the Alaska District                                      LB-AR-01-019


                               regard to the work climate at the Wasilla Carrier Annex,
                               management responded that a designated "management
                               mentor" and the I B I ^ I ^ H H H H H I I ^ " continue
                               monitor the workplace climate at Uie annex and believed the
                               workplace climate had improved. Management also noted
                               that quarteriy employee interviews would be conducted at
                               least three times between now and December 31, 2001.
                               Management indicated that the area managers of Human
                                Resources and Labor Relations were charged with
                               assessing management's preparedness to avoid
                               grievances, by property managing the grievance process
                               and resolving grievances at the lowest possible level.
                                Management has ensured that any additional training or
                               development required as a result of this assessment will be
                                completed by October 1, 2001.

 Overall Evaluation of          Management concurred with four of five recommendations
 Management's                   and their actions taken and planned are responsive to those
 Comments                       recommendations. However, management did not agree
                                that the Western Area should formally establish and
                                publicize procedures to require higher-level approval of
                                transfers and promotions of relatives of management
                                officials. Instead, management suggested that
                                headquarters Human Resources should implement the
                                recommended action. Because Human Resources
                                management has stated they intend to implement broad
                                policy on the employment and placement of relatives, we
                                consider such actions responsive to the recommendation.
Management Practices In the Alaska District                                          LB-AR-01-019



                                         INTRODUCTION

 Background                     The Office of Inspector General (OIG) received a May 23,
                                2000, congressional inquiry regarding allegations of
                                nepotism, intimidation, and wasteful management practices
                                in the Alaska District and specifically in the Wasilla Carrier
                                Annex. The letter contained allegations that (1) the Alaska
                                H ^ H ^ ^ H inappropriately transferred his son into the
                                Alaska District, placed him into the Associate Supervisor
                                Program and then promoted him to a supervisor position,
                                (2) management used severe intimidation tactics, and
                                wastefijl staffing practices during a route inspection at the
                                Wasilla Carrier Annex, and (3) the
                                H H H W3S uninterested in assisting employees with
                                these situations and did not report the matters through
                                proper channels.

                                According to Postal Service Personnel Operations
                                Handbook EL-311. April 1990, nepotism is defined as the
                                attempt by any Postal Service manager or non-bargaining
                                employee to recommend, influence, or express interest that
                                could be construed to influence the appointment or
                                promotion of a relative. Section 312.3 of the handbook,
                                Restrictions on Employment of Relatives, provides policies
                                and procedures on handling appointment and promotion
                                consideration of relatives of a Postal Service manager.

                                 The Postal Service established the following initiatives and
                                 strategies to instruct employees on maintaining a violence-
                                 free workplace:

                                 •   The Joint Statement on Violence and Behavior in the
                                     Woricplace states the Postal Sen/ice's position that
                                     violent and inappropriate behavior will not be tolerated
                                     by anyone at any level of the Postal Service.

                                 •   Publication 45, A Violence-Free Workplace, states
                                     everyone has a right to a violence-free wori<place.

                                 «   The Alaska District's Zero Tolerance Policy for Acts or
                                     Threats of Violence in the Workplace states the district's
                                     position is to create and maintain a healthy workplace.
Management Practices In the Alaska District                                        LB-AR-01-0ig




 Objectives, Scope,             Our objectives were to determine if allegations of nepotism,
 and Methodology                intimidation, and wasteful staffing practices in the Alaska
                                District had merit. Specifically, we determined whether
                                (1) the appearance of nepotism existed regarding the
                                transfer, placement, and promotion of the
                                son; (2) tetter carriers at the Wasilla Annex were subjected
                                to intimidation during and immediately following a week long
                                period of route inspections; (3) employees at the Anchorage
                                facility experienced intimidation in their work environment;
                                (4) the i i i m m m m m n i l j l l acted responsively to
                                employees' allegations, and (5) staffing practices during
                                route inspections were wastefijl.

                                To accomplish the objectives related to nepotism, transfer,
                                placement, and promotion of the H ^ I H l i l H H son, we
                                reviewed Postal Service policies and procedures concerning
                                transfer, placement, and promotion of relatives. To answer
                                the objective concerning intimidation, we looked at
                                grievances, Equal Employment Opportunity complaints, and
                                disciplinary actions to help us assess whether intimidation of
                                employees was occurring. Regarding our objective
                                concerning wasteful staffing practices, we reviewed travel
                                vouchers, personnel files, and other personnel related
                                reports to assess the reasonableness of staffing decision
                                during route inspections.

                                 To accomplish all of our objectives, we interviewed Alaska
                                 District management including the I H I ^ H H I .
                                 manager of Human Resources, manager of customer
                                 service operations, employee and workplace intervention
                                 analyst, labor relations specialists, postmasters, station
                                 managers, and craft employees at 15 facilities in Anchorage
                                 and two facilities in Wasilla. We interviewed 115 craft and
                                 management employees in the Alaska District. Specifically,
                                 in Anchorage we randomly selected and interviewed 49 of
                                 959 craft employees and 28 of 83 management employees.
                                 At this location, we also interviewed 11 management and
                                 7 craft employees who were not included in our random
                                 sample. In Wasilla, we interviewed. 2 managers, 4 clerks,
                                 and all 14 letter carriers. These employees were selected
                                 judgmentally.
Management Practices in the Alaska District                                         LB-AR-01-019




                                This audit was conductedfiromSeptember 2000 through
                                May 2001 in accordance with generally accepted
                                govemment auditing standards, and included such tests of
                                internal controls as were necessary under the
                                circumstances. We discussed our conclusions and
                                observations with appropriate management officials and
                                included their comments, where appropriate.

 Prior Audit Coverage           We did not identify any prior audit coverage in the last
                                5 years related to our specific audit objectives.
Management Practices in the Alaska District                                          LB-AR-01-019



                                         AUDIT RESULTS

 Allegations of                    We did not substantiate the allegation of nepotism in
 Nepotism                          regards to the transfer, placement, and promotion of the
                                                       son. However, we found there was an
                                   appearance of nepotism in that some employees we
                                   interviewed believed the ^ H I H ^ H M son had
                                   received preferential treatment of his transfer to another
                                   Postal Service facility, placement into the Postal Service
                                   Associate Supervisor Program, and subsequent promotion
                                   to supervisor. Local procedures on the transfer of relatives
                                   are unwritten and not well publicized, which contributed to
                                   the perception of nepotism. In addition, national policy on
                                   the employment of relatives does not address transfer of
                                   relatives, which contributed to confusion over how Human
                                   Resources should have handled the situation. Additionally,
                                   national guidance for administering the Associate
                                   Supervisor Program does not address how to mitigate the
                                   appearance of nepotism when placing relatives in the
                                   program. We found that the Western Area vice president
                                    responded to the allegation of nepotism in a May 2000 letter
                                    to the president of the National Association of Letter
                                    Carriers Branch 4319.

 Transfer, Placement               We found the transfer of the • • • ^ • ^ • l son had
 and Subsequent                    been approved at a higher level than normally required by
 Promotion                         local policies for transfers. The Western Area manager of
                                   Human Resources approved the transfer. Local procedures
                                   only require the approval of the manager, Human
                                   Resources, Alaska District; however, this policy is neither
                                   written nor publicized. The Personnel Operations
                                   Handbook EL-311. section 312.312, which discusses the
                                   employment of relatives, does not specifically address the
                                   transfer of relatives.

                       •   <   ^
                                   We also found the placement of the • ^ • ^ ^ ^ ^ ^ H son
                                   into the Associate Supervisor Program and his subsequent
                                   promotion followed established procedures. We found no
                                   evidence that the ^ m | m ^ g | | | ^ ^ ^ involved in the
                                   transfer, placement, or promotion of his son. The | ^ ^ |
                                   W K K M stated that he neither transferred his son to the
                                   district nor was he involved in the son's selection for tine
                                   Associate Supervisor Program. Additionally, he stated that
                                   he stayed as far away as possible from the process.
                                   However, we found there was an appearance of nepotism in
Management Practices In the Alaska District                                                      LB-AR-01-019



                                 that some employees interviewed believed the j ^ ^ g
                                 ^ ^ ^ ^ 1 son had received preferential treatment in the
                                 execution of his transfer and placement into the Postal
                                 Service Associate Supervisor Program and subsequent
                                 promotion to supervisor. National guidance for
                                 administering the Associate Supervisor Program does not
                                 address how to mitigate the appearance of nepotism when
                                 placing relatives into the pnDgram.

                                 Placement into the Associate Supervisor Program was
                                 competitive, and a review committee made the final decision
                                 for all applicants.^ The review committee was comprised of
                                 supervisors in the Alaska District. In interviews, these
                                 supervisors stated they were not influenced in any way. We
                                 found the application package for the H H H H H t f son
                                 met established guidelines for selection as documented in
                                 the Associate Supervisor Program Coordinator's Guide.
                                 Seventeen individuals applied for the program and eight
                                 were selected. Upon successful completion of the program,
                                 the I H I H H ^ B son and other successful candidates
                                 were promoted. Specifically, the B H J j j ^ ^ l H I son was
                                  promoted to supervisor, Customer Services, in the Alaska
                                  District.

                                 During interviews, employees stated they felt the j j ^ ^ l
                                 I H J ^ H son received special treatment with regard to his
                                 transfer, placement into the Associate Supervisor Program,
                                 and subsequent promotion to a supervisor. One employee
                                 expressed the opinion that individuals do not usually get
                                 selected for the Associate Supervisor Program on their first
                                 application. Other employees were concerned with the
                                 timing of the H H l l H H I H H selection for the
                                 Associate Supervisor Program, which occurred 6 months
                                 after his transfer to the Alaska District The guide states,
                                 external candidates may be selected if the internal
                                 candidate pool does not include a sufficient number of
                                 talented people. However, no data was available on the
                                 number of individuals selected on their first application to
                                 the program. Program guidance emphasizes that decisions
                                 on recruitment depend on the talent pool and is done in
                                 conjunction with intemal recruitment efforts.



  Both Intemal and external candidates can submit applications for the Associate Supervisor Program. A review
committee composed of three supervisors evaluates all applications. Candidates who successfully complete the
program are promoted to a supervisory position. Associate Supervisor Program Coordinator's Guide. August 1998.
Management Practices In the Alaska District                                        LB-AR-01-019



 Western Area Vice              In a May 19, 2000, letter to the president of the National
 President's Response           Association of Letter Carriers Branch 4319, the Western
 to Allegation of               Area vice president responded to the allegation of nepotism
 Nepotism                       in the transfer, placement, and subsequent promotion of the
                                                           son. The Western Area vice
                                president stated the allegation was incorrect. In his
                                response, the Western Area vice president explained the
                                circumstances of the transfer and placement. He stated
                                that the transfer request was handled as other transfer
                                 requests were handled and that the j J l ^ H ^ H I ^ H son
                                 had as much or more postal experience than many
                                Associate Supervisor Program candidates.

 Recommendation                 We recommend that the senior vice president. Human
                                Resources:

                                 1. Consult with the Law Department regarding whether the
                                    transfer of relatives falls within the Postal Service and
                                    statutory nepotism prohibition and advise us of the Law
                                    Department's opinion.

  Management's                   Management concurred with our recommendation.
  Comments                       Management responded that headquarters Employee
                                 Resource Management was currentiy revising policies and
                                 procedures that provide guidance on the employment of
                                 relatives. Management noted that new guidance would
                                 appear in the release of Handbook EL-312, Employment
                                 and Placement. Management also stated that the Law
                                 Department was currently reviewing draft language dealing
                                 with the employment of relatives. Management commented
                                 that following the legal review the final draft of the policy
                                 would be placed in the clearance process, which would take
                                 approximately 90 days.

  Evaluation of                  Management's actions taken and planned are responsive to
  Management's                   the recommendation.
  Comments
Management Practices In the Alaska District                                      LB-AR-01-019




 Recommendation                 We recommend that the senior vice president, Human
                                Resources:

                                2. Provide guidance on how to mitigate the appearance of
                                   improprieties when dealing with the employment of
                                   relatives to include appointment, transfer, and
                                   promotion.

 Management's                   Management concun'ed with our recommendation.
 Comments                       Management responded that headquarters Employee
                                Resource Management was revising Handbook, EL-312
                                Employment and Placement to include guidance on the
                                employment of relatives, which encompasses not only initial
                                hire, but also transfer and promotion. In addition,
                                management indicated the Law Department was in the
                                process of reviewing draft language dealing with the
                                employment of relatives. The Law Department's review was
                                intended to ensure that Postal Service policy addresses all
                                applicable statutory language on employment of relatives.
                                Additionally, management stated that subsequent to the
                                ongoing legal review, the final draft of the policy would be
                                placed into the clearance process, which takes
                                approximately 90 days.


 Evaluation of                  Management's actions taken and planned are responsive to
 Management's                   the recommendation.
 Comments

 Recommendation                 We recommend that the vice president, Western Area
                                Operations:

                                3. Formally establish and publicize procedures to require
                                   higher-level approval for transfers and promotions of
                                   relatives of management officials.

 Management's                   Management did not concur with our recommendation.
 Comments                       Management determined the current "Restrictions on
                                Employment of Relatives" in the Personnel Operations
                                Handbook EL-311 provided sufficient guidance and
                                instruction to field operations on the employment of
                                relatives. Additionally, management noted that
                                headquarters Human Resources should be the appropriate
Management Practices In tha Alaska District                                         LB-AR-01-0ig




                                venue for compliance with this recommendation.
                                Management also noted that any action by ihe Western
                                Area to establish or publicize procedures over and above
                                the existing procedures would be counter intuitive.
                                Management argued that any action by the Western Area
                                on this matter could be construed as "denying employment
                                or promotion to otherwise eligible and qualified relatives of
                                non-bargaining employees," which would be of grave
                                concem. AdditionallyjTianaaemei^^           that the audit
                                              the H H H M H H B H I of
                                properiy sought higher-level area approval of the
                                appointment discussed in the report.

 Evaluation of                  Western Area management's comments were not
 Management's                   responsive to our recommendation. However, headquarters
 Comments                       Human Resources management stated they are
                                implementing broad guidance on the employment and
                                placement of relatives, which is expected to be published 90
                                days after legal review. We consider actions planned by
                                headquarters Human Resources to update and revise
                                guidance on nepotism, to be responsive to the issues
                                identified in this report.
Management Practices In the Alaska District                                         LB-AR-01-019




 Allegations of                 We found evidence to support the allegation tiiat
 Intimidation                   intimidation at the Wasilla Carrier Annex occurred during the
                                week of route inspections and for a short period following
                                route inspections. However, at the time of our audit
                                fieldwork, employees interviewed described the current
                                work environment as good and attributed the improvement
                                to a change in supervision.

 Intimidation at the            In interviews, employees described how they felt during the
 Wasilla Carrier Annex          route inspections. Many employees stated thatttie number
                                of supen/isors present during the route inspections was
                                excessive and made them feel intimidated. In addition, the
                                supervisors were described as aggressive and intimidating.

                                For example, one supervisor shoved the mail around in
                                employees' workstations, causing confusion and extending
                                the time it took to prepare and deliver the mail. One
                                employee described this supervisor as causing "total chaos"
                                on the workroom floor. Another employee stated a
                                supervisor used "dehumanizing" methods, such as labeling
                                timecards to notify employees of disciplinary discussions.
                                Yet another employee stated that supervisors assigned to
                                the route inspections badgered them on the workroom floor.

                                In addition, an employee indicated that two supervisors
                                followed carriers on their routes. Employees viewed the
                                number of supervisors assigned to each carrier as
                                excessive and intimidating. Further, employees were
                                issued discipline when they asked supervisors routine
                                questions. When one employee asked about bathroom
                                breaks because the employee's route covered a remote
                                area, the employee was disciplined for asking this question.

  Discipline Issued              We found that during the route inspections and for a short
  During Wasilla Carrier         period following the route inspections, 15 disciplinary
  Annex Route                    actions were issued to 6 of the 14 letter carriers. Generally,
  Inspections                    employees were charged with failure to follow instructions
                                 and unacceptable work performance. All of the disciplinary
                                 actions issued during the period of the route inspections
                                 were subsequently rescinded or settled.

                                 Employees stated one supervisor, detailed from Wyoming,
                                 demonstrated extremely aggressive behavior during the
Management Practices In the Alaska District                                                      LB-AR-01-0ig




                                 route inspections. This supervisor issued 10 of the
                                 15 disciplinary actions. Despite employee concerns, the
                                 Wasilla postmaster expressed the opinion that this
                                 supen/isor was excellent in conducting inspections and in
                                 managing carrier activities.

 Management Actions to           In response to labor management issues caused by the
 Address Labor                   route inspections, the disti"ict manager initiated a workplace
 Management Issues at            intervention.^ The intervention was conducted by the
 the Wasilla Carrier             Western Area labor relations specialist with union
 Annex                           cooperation.

                                 The intervention report disclosed there were two groups of
                                 employees with very distinct perceptions of the office. One
                                 group felt they were working under a dictatorship with very
                                 strict rules; and the other perception was that employees,
                                 and to some extent the union, were running the office.

                                 The report identified the following divergent perceptions
                                 concerning the wori< environment:

                                      •   Employees agreed that the work environment had
                                          improved.

                                      •   There was a lack of consistent leadership in the
                                          office, which resulted in conflicting management
                                          styles.
                                      •   Two issues of concern surfaced regarding the route
                                          inspections. First, individuals from outside the
                                          Alaska District conducted inspections. Second, the
                                          team conducting the inspections was too large.
                                          Some employees welcomed the involvement and
                                          attention of the large team, and others identified their
                                          actions as harassment.

                                      •   With regard to managing the office, one group felt
                                          management was too controlling, while the other felt
                                          that management was Anally exercising control.

                                      •   There were a high number of grievances, and
                                          grievances were not settled at the lowest step.

 The Intervention was conducted on July 17 and 18, 2000, and a report was Issued on September 13, 2000.
Management Practices in tha Alaska District                                           LB-AR-01-019




                                The report identified factors that contributed to tension in the
                                workplace, including the lack of consistent management, the
                                lack of experience of the current supervisor, and the
                                supervisor's lack of knowledge of the union contract.
                                Additionally, the union steward was described as intense
                                and combative.

                                The intervention report recommended the following actions:

                                    •    Select outside management and union mentors to
                                         assist and oversee relationships within the office.

                                    •    Train the current supervisor on how to resolve
                                         grievances at the lowest level and provide joint
                                         training on the union contract.

                                    •    Monitor grievance activity.

                                    •    Work with the union to improve the atmosphere in the
                                         office.

                                    •    Conduct follow-up interviews to evaluate the wori<
                                         environment.

 Status of Intervention         The district Human Resources manager provided the
 Report                         following status, as of February 12, 2001, on progress made
 Recommendations                on recommendations included in the intervention report.

                                    •    Mentors were identified for Wasilla. They are the
                                         local president of the National Association of Letter
                                         Carriers, and the manager of Post Office Operations.
                                         These mentors will assist in improving relationships
                                         within the Wasilla Camer Annex.

                                     •   Union and management have met on a number of
                                         occasions since the intervention. Formal and
                                         informal labor management meetings continue to be
                                         held.

                                     •   All prior grievances were referred to the mentors for
                                         settlement.
Management Practices In the Alaska District                                            LB-AR-01-0ig




                                    •   The manager, Human Resources met with the
                                        national business agent for the National Association
                                        of Letter Carriers three times since January 2001 to
                                        resolve cases pending arbitration.

                                    •   No formal labor contract training was given, however,
                                        with the level of oversight given by mentors, contract
                                        learning is an ongoing process.

                                    •   Grievances are being resolved at the first step with
                                        the support of the mentor.

                                    •    Oversight of grievance activity is ongoing.

                                    •    The National Association of Letter Carriers mentor is
                                         working to improve the relationship of the local
                                         representative and management. Some progress
                                         was made in this area.

                                The district Human Resources manager believes that the
                                work environment has improved; however, no follow-up
                                interviews with employees have occurred to verify tills
                                conclusion. The only recommendation not acted upon by
                                the district was to conduct follow-up interviews with the
                                employees in Wasilla. We believe this is an important step
                                in improving the work climate at the Wasilla Annex and
                                ensuring employees of the importance of their concerns.


  Recommendations                The vice president. Western Area Operations, should
                                 require the Alaska District manager to:

                                 4. Conduct quarteriy follow-up interviews with employees to
                                    monitor the workplace climate.

  Management's                   Management concurred with our finding and
  Comments                       recommendation. Management has assigned one of the
                                 Alaska District's managers of Post Office Operations to be
                                 the "management mentor" to routinely visit the office,
                                 provide guidance, and monitor the workplace climate in
                                 Wasilla. In addition, quarteriy employee interviews will be
                                 conducted at least three times between now and
                                 December 31, 2001.
Management Practices In the Alaska District                                       LB-AR-01-019




 Evaluation of                  Management's actions taken and planned are responsive to
 Management's                   the recommendation.
 Comments

 Recommendation                 The vice president, Westem Area Operations, should
                                require the Alaska District manager to:

                                5. Implement a training program for management on how
                                   to resolve grievances.

 Management's                   Management concurred with our finding and
 Comments                       recommendation. Management has requested an
                                assessment of management's preparedness to avoid
                                grievances, properiy manage the grievance process and
                                resolve grievances at the lowest possible level. Additional
                                training or development identified as a result of the
                                assessment will be completed by October 1, 2001.

 Evaluation of                  Management's actions taken and planned are responsive to
 Management's                   the recommendation.
 Comments
Management Practices In the Alaska District                                        LB^R-01-019




 intimidation and Work The majority of managers, supervisors, and craft employees
 Climate In Anchorage interviewed in Anchorage had not personally experienced or
                       witnessed intimidation in the workplace. Additionally, they
                       believed that the wori< climate was good in Anchorage.
                       However, those that had experienced intimidation in the
                       workplace attributed the pressures to aggressive efforts to
                       achieve performance goals.

 Management                     Nineteen management employees interviewed had not
 Employees                      experienced or witnessed intimidation in the workplace.
                                However, eight of twenty-eight employees felt intimidated by
                                senior management to achieve performance goals. A few
                                employees cited situations where they were threatened with
                                disciplinary action if they did not meet their performance
                                goals.

                                Two managers interviewed provided examples of where
                                they had experienced intimidation. One manager
                                expressed frustration when she had received performance
                                awards, but was still threatened with discipline if
                                performance goals were not met. The other manager
                                requested a voluntary downgrade and transfer, and was
                                willing to commute over 200 miles one-way rather than
                                continue to be threatened with termination for not making
                                performance goals.

  Craft Employees                Thirty-four of forty-nine craft employees interviewed had not
                                 experienced or witnessed intimidation in the workplace.
                                 However, 15 employees felt intimidated by management
                                 personnel. Four of the employees that felt intimidated by
                                 management believed this intimidation was the result of
                                 pressure subordinate supervisors received from senior
                                 management concerning performance goals.

  Work Climate                   We asked managers, supervisors, and craft employees to
                                 rate the work climate at their current facility. Most stated
                                 their work climate was good. In addition, some stated it had
                                 improved due to management changes.
Management Practices in tha Alaska District                                         LB^R-01-019




 Actions Taken by               We found no evidence to support the allegation that the
 Human Resources                ^ ^ ^ ^ ^ m B H l M W3S                            to
 Manager                        employees' allegations of nepotism, intimidation, and
                                wasteful staffing practices. The Wasilla route inspections
                                started on March 4, 2000. On March 7, 2000, the President
                                of the National Association of Letter Carriers Branch 4319
                                wrote a letter to the district concemina the route inspection
                                 procedures. On April 3, 2000, the
                                          replied to the March 7, 2000, letter from the union.

                                The ^ ^ ^ ^ ^ ^ ^ ^ ^ ^ ^ I H i l response to the
                                officials indicated she took the allegations seriously, and
                                was interested in clarifying the actions taken with regard to
                                these matters. Additionally, the ^ H H I H I ^ I ^ M H i i
                                sent the district employee workplace intervention analyst to
                                Wasilla and the area followed up with an intervention held in
                                Wasilla in July 2000.
Management Practices in the Alaska District                                         LB-AR-01-019




 Allegations of Waste           We found the staffing practices during the route inspections
 In Route Inspection            were not wasteful. The dishlct deemed it necessary to
 Staffing                       inspect tiie routes every day during the week in question.
                                Guidance allows management to determine the number of
                                route examiners and the frequency of the route inspections.
                                The Postal Service Handbook M-39. section 231.1, states
                                the inspection of a route is the observation by a manager of
                                the carrier's office and street work for one or more days and
                                includes counting and recording the mail handled and the
                                time used for each function.

                                According to the district manager, there were not enough
                                trained supervisors within the district to accomplish this
                                task. There were ten routes to be inspected with one
                                examiner needed to inspect each route each day. Six
                                supen/isors were detailed from outside the Alaska Disti'ict to
                                assist with the route inspections conducted at the Wasilla
                                Carrier Annex. In addition, local and district management
                                participated. We did not take exception to this situation, as
                                management had sound justification for conducting
                                Wasilla's route inspections in this manner.

 Auditor Comment                 During our review, the • • • • • stated he planned to
                                 ensure supervisors and managers in the Alaska District are
                                 trained to perform route inspections because there were not
                                 enough trained supervisors within the district to accomplish
                                 route inspections without detailing supervisors from other
                                 districts. Thisti'aininghas been completed and route
                                 inspections are cun'entiy ongoing in the district using Alaska
                                 personnel.
Management Practices in the Alaska District                                                                                LB-AR-OI-OIO



                          APPENDIX. MANAGEMENT'S COMMENTS
               Auzvac F. ueovnxMCH



                UNITED STATES
               POSTAL SEftVfCE


               Mflv2,3001




               ROrWLD K. STfTH

               SUBJECT: Transmittal ol Draft Atxlll Kepori - Managvmenr Puclioas in tha Alaska
                        •islrid (R«poi NumUar LB-AFV-01-DRAFT)


               Tha tolowing convneris nra provided h r^nponso to thn Umrh 3 rlr.iFt niidt rnport

                FtecommATitmiona trom the Dlsawslon Points:

                     1.    Senior VP, Human Raaources consull w t h the t a w Depailmern regarding wh«th«f m t
                           tranodQf gl relativeti tuih wilhiri iha Podal Servicu aihj stalutoTy nepoUsni prohibition and
                           Btiifise OS 01 the Lew O^iartmeni's opinion.

                     2.    Senicr VP, Human Resources priMoe guidance on how to mlilqEiie the appearance of
                           improprieties When dealing vi4'Ji Ihe appot-itm«nL Irar^fer, and prgaicAignor rslnlrvefi.

                Response:

                           Employee Rasoitrce Uanagemeni Is o^^rentty revising our pdldes and procedures that
                           provQe QUlctancQ on Ihg topic cf Tti« nrnployrTMint of mInHvea. New guklanca will a{^>ear In
                           ( ^ release ol HvidDOOk EL-312, Emptaymitrft rtmi PSiimunmrd. (^uldAnc»on V M nmptoymant
                           ol relattvn encompass^* not only ndial lurv, bu> BI»O vmployment in broader l e m u to
                           induiis Iransler and promoitoti. The Lew department Is currerdty ravishing a oraft o* -^9
                           language dealing whh the employment o4 relativ»«. ITwir rwitrw iu intended to wnaura ihai
                           oiir policy addressas ell a ^ c e b ' a ciaiutory language on ihe topic c4 employment of
                           relai^res. SubseqiMnt to IRBUI revie*M, ihq flnnl dmft n4 ihn poCry wiH na plecad Into Ihe
                           clearance procQsa, which t ^ e s appnMfbnatfliy 90 days.




                Suz^me F. Medvidovleh




                •l.'b L E " * * * ! ! P.-<^SW, RCOvgmi



                F M J tz:al2bfr-<^kM
Management Practices In the Alaska District                                                                                                     LB-AR-01-019




                •J;- R i ' V f ,1, i W ^ I - * i^T,* O-J-^Ti.-.


               UNrTEDSraTES
               POSTOL SEKVtCE


               AprU9.200l


               SUBJECT:                       Wftstftni Areii Mnnafiftmant Comments
                                              Traiamittiii o* [>an Atitiit Report - M<(naQement Practicsen In rhft Ai?!rtk«
                                              UictrK:! (Kepon NLmbar LB-AR-m-DRAFT)

                MeMORAKCLiU FOR:                              Ronnid K. Smith
                                                              Assistant In^eccor Oa^eral
                                                               for Overiight and Businns Evaluations




                M a u g e m e n i comDenla oii the a<jo\'e subject Draft Aiidlt Report ar» furnished heren.                         Please
                note ttifl ohglrai resporse cato of A^iril 2 was extended lo April 16 by Ms. Hansen.

                Ma'«a«ment conr»rient8 were requested trom senior vice President of Humisn Raioupcai
                Suzanne Madvidovich and Western Area ViCe Prestdent of Operations Crelg Wade. This i% to
                respond to )uct those recomp-endatJons addressed to Waelem Area.

                It vrss recommended ihc Vlc< President of W»tern Arstt Oper^tton* ''fornnlly nAlnhlbih nnrl
                publlciza procedures lo require higher-levfti approval for transfers and promotions of raiaives ol
                meiagement officleds".

                                   We ripve determ ned the currert "RestrlctlonB on Fmployment of RnlBttvow" n^ fwrl 312 3
                                   of Personnel Operstjons Handbook EL-311 (attachet!) pro^nde suffideni gjidance end
                                   list'UCtkin to field operations on the empioyment of rcatrves. Wo recognize OIG t~fls
                                   separately recommovled to the Senior Vice President of Human ReKourceB to cor.sidw
                                   whotnor those porsnnnol rrvyjiromcntB Rro sufficlnnl.

                                   We believe the requested detsnnjnatlon by Headquaflers Human Resocrx^s Is the
                                   upproprldte vmutt for this recuiTiiiiend3:lan. Any action by Wuslerr' Ared tu eslnblibh u
                                   piihllciro prncr»lnro!i nvnr nnd nbnvc tho pmnodtirns In p r j l 312.11 wmild hn rsnintnr
                                   iniuicive. F j i h e r , we ^edrica&y note to yotjr utendon part 312313; any action oy
                                   Weslem Area IhRt could be coostmed as 'denying empioymwit or promotion lo otherwise
                                   ttfigt^u und ^ll(Jli^itfd relittlvt>» urrrctn burgniiibig eiiipiuytitis'wuuldbu ugrbve COMCINII.

                                   We also note your audit reports Ihe ^ ^ ^ ^ ^ ^ ^ ^ ^ ^ ^ ^ ^ ^ ^ ^ ^ ^ ^ ^ ^ ^ H H ^ ^ H H
                                   properly sought h ghe' level Area approval of the appointment et Issue.

                ll was racomrrerded the Vice President of western Area Operations should require Iho Alas^o
                nifttriRl Mmngnr to (1) "Conduct qiuwletiy follnw-uo hrMervlewS with fimplOyeas to monitor tha
                workplace d i n a t e ' and (2] 'Implement a training program lor marvagement on tiow to refoKn
                grietranca."

                               ^ H ^ ^ ^ ^ H ^ ^ ^ H ^ ^ P ^ ^ ^ ^ ^ a s                         cnsurec         Manager of           OfTIca
                                 O p s r s t l o r ? ^ ^ ^ ^ ^ ^ ^ ^ ^ | n a k » ^ r e q w n ) personal vi9\t% to WssHle tn his riniilcruiind
                                 rale B I the rnanapement mgntcy to assiit in improving relationshios wlinl^n ^ e Wasilla
                                 Carrier Annex. ^ ^ ^ ^ ^ ^ ^ H M S monitored labor management meetlngtiyttisuBv und
                                 provided guidance, tn concert w i t h ^ ^ ^ ^ H I ^ ^ B ^ ^ ^ ^ ^ ^ ^ ^ ^ ^ ^ ^ ^ H * that,
                                 weMlieve. has contnuedto i m o ' O v ^ I ^ w o m p T a ^ ^ i m « T ^ m w 5 a M ^ ^ ^ ^ ^ ^ ^ ^
                ^7•^•il i i ' j U ' t   H.i'.. u<-»   :<:<>
                r',v,. cz-nrjjj-'jjjj
                y / i 313 ClJJ
                r*.-.?•:;'••"•Juiu;
Management Practices in the Alaska District                                                                                     LB-AR-01-019




               Westem Area Management Comments
               Transmittal of Draft Audit Report - Management Precticfls in ttte Alaska Kstrict
               Ron3!d K. Smlih
               Aprl9.2flCH
               Pege Two


                                          I has r c c e r t l ^ ^ ^ ^ ^ ^ o h t a d the Employee Woritplace Intervention
                       Anaiyet for Alaska District. W          W        <s particuifirty wali qualined to condud the
                                        'quarterly emptoyee interviews* to monitor the WasHla woritplace dlmata.
                                        snd I i-iave agtBed these interviews wDI be conducted at least thnra times
                        tietvjoon rtoM nnd Docnmhnr ^ 1 , 2001.

                                                                 <y appointed Western Are^Mannaer of Human ResoLrces
                        r » p l t i c i n ( i B i ^ ^ H ^ ^ ^ P w h o 'Bcenlly retired, ^ ^ ^ ^ ^ ^ ^ i ^ h e ne^ty appointed
                        Monegcr of Lobor Rclotlons for WostoTi Anra r e p l o c i n g ^ ^ ^ ^ ^ B w i u wan rtHienUy
                        flrojTjote^oirtslcl^th^Ar^                     Tha Western Area Vice President has rcquostod
                      ^ ^ ^ l ^ ^ l ' a n c l l ^ ^ ^ ^ ^ l a t s e s t minegsmont'a prepBrednesa to avoid (r<cances,
                        protinrty fnanage ihe griavance process and rasotve gnevances at tha Imrest po«sibla
                        lev«i. H H ^ ^ I t f ^ oxnmitted to onsuring tills assossmont ond any nddlilonol
                        tcahirtg or develcfimanl reqiiVed aa a result of Ihia assessment will be completed by
                        October 1,2tXH.

               We offs' additional commente on sotre othe* aepsciB of this aud>t report.

               TTie Issue of avcMino U ^ ^pearance of nepotism Is compiBif. Anytime the reiativft nf n pmdai
               manager Is eppoinled or promoted. Ihe ap?eararKe of nepotism ts CJ-eatsd. We note that part
               312.312 Personnel Operstions Hertdbool( EL-311 states. In pertinent part, 'Appolniing and
               Approving nritho-iilen miini conaldsr whether the aspol'^tment or promotion oT l i e reiaUve Is likely
               10 create the appearance of ^propriety in the eyes of the public and other postal employees (end
               therefore brng discredit to tha Postal Service)         if so, an aliamaia selection should be
               considered.'. This saolton is immediateiy fallowed by pari 312.313 v^lch statoa, *The«e
                regulations are not Intended to arbiirariy deny employment or promotion to otherwise eligible and
               qualified relotives of non-barga^^g oniployoos.' w o bclKivo thooo two kiGtriir^tinrM nrn intnndnri
               to tw intorpreted togetiier as pari of 312.3. The penalties associated with ^ i n g lo appoiil or
               pi'onwte an otherwise ellgitjte ar>d qitaltled relative rriist also be considered.

               We also note til tlie allagattons addressed In this audit arb« from the mantigemenl decision to
               address dty carrier problem* in Wasilla. We approcata the inOLaion of the WttMern Area
               Lilervention assessment Wo talie special note of two observations Irom the reporL

                        Tt>e Intervention r^>c»t disclosed there wars two groups of empbyees wtth very distinct
                        perco^tioni of the ofTioe. One group felt ^ e y were working under a dictatorshp wilh very
                        ftlncf miea; and the oiner perception was that employees, and Lo some e ^ n l tha union,
                        was njrning the office."

                               '.. .Sonte employees wralco-na the invotvement and Attention of thn iarga team, nrvl
                               o<:l>ers idenlifiad thftir Actions as harassment"

                               ' . . O n e group felt manaoemem was too controlling, while ttie ottier *eit thst
                               maneioemenl wns finnlty eicnrrlfiing Rnniml."

                We INnk 11 Dertlnent to note Ihe nasuits of tne management cedslon » address perceived city
                carrier bsiiRA In Wosliin. City carrier wcylchaurs for the first half of FV 2CX}t are-10?c to the city
M a n a g e m e n t P r a c t i c e s in t h e A l a s k a District                                                             L B - A R - 0 1 -019




                        Western Ares Marugement Comments
                        Transmittal ot Draft Audit Report - Maruigemenl Practices in ihe Aleslca District
                        Ronakl K. Smith
                        April 9,2001
                        Page TTtee


                        csrrlar workhours used in the llrvi half o* FY 2000- Ctly cvrrter ovurtiinu lur 'h\& iKiinu period iu
                        -47Vk Improved and penotty overtime Is - 6 6 % Improved. Thera Impmvomonts In oMcioncy wcro
                        realized with iha colrviideni Improvement In the workplace climate In WaslBa. This <^servetlon Is
                        shared only to va'^ate the origlnai maruQemeil perception of severe cKy carrier issi/es in Wastlla
                        appeared correct.

                        Wc recognt^c OlG hos Im'cgled considBrpbie time snd renmin:eB la tht? ntxlii nf Alaitkn Diitnnt.
                        We believe nis OIQ involvemanl has nad an additiorid posUhre Influence on tne workplsca
                        climatQ tn Alaska and g'»att>' appreciate your atlent-on to tnis mslter.




                         Craig O. Wade
                         Vicn PrriRldAnt, Area Operntlann

                         AttBChmenis

                         DtstrbuUon with Attachments:

                                                                                          /ich
                                                                 So^unita H. k4illuii
                                                                 Anthony J. Vogllania
                                                                 J d v i R. Gunnels
                                                                 Margie J . t i u ^ s s


                         CGW.H
Management Practices In the Alaska District                                                                                                      LB-AR-01-019




          SI 2.14                                                                                                          Pers«nnsi OpeiVBOM


          Kuthorlzed. whether or nouMl£y urv high whnol
          gnduxtM, If itierc te iip^<[aequaui supply nf p«f'
          lont IS years and a ^ e .
                                                                                         tlons are ilgniflcflnity more rejtrtctlve than itiove
                                                                                         provided )r\ rtie law,

                                                                                         312312 The Bitempt by any poUal manaser or
                                                                                                                                                       c
          312.14 Rmrtcflotit Oit AnIgiiromls. Pertont un-                                flonbargalnlng emptoyee (o •'ecommend. Influ-
          der 18 y*rri may twt be aiwgnod to^ay p«ltlon                                  ence, or e»preM intereM «fc*lch may be coiutmed
          whJ^>^qtiirM any of the f(rilo*;|i»tf»crivliieK                                ai Influence in the appolntmeni or promoiton of
               a Operation of a rooior'vehkle.                                           0 relntivc, is prohibited. 1| i* important to protect
                                                                                         public nnd employee confidence in the linearity
               6. Operation of-'power-driven wnoHwcrfclni                                of postal Hdection procedures. Apptdailog na6
          mactilncs.      ^'••^                                                          approving authorklei miui con&lder wheiher the
               c. OpcratlMi ot po\k'«r-driven boiiting ikp-                              appointment or pronuitlan oT the relative h likely
          psrstiisx'                                                                     to create ctie Appcsraoco of impropriety )n the
             - ^ Operation of pO".-er-dfivftn j»«taJ formltig,                           eyes of the public and 04her pittiAl emplnyeu
          punching uid itworiag niach1;ies.''                                            (and therefore bring discredit to the Postal Ser-
                                                                                         vice). If 10, an alicmaie sdecilon ahould be con-
               *. Operailnn of clrctTlar uw.^ bsnduwv or                                 sidered.
          guiltoiinc ihcan. ..•^'
           312.2 Cltlzjtn^p RcqairsniMin                                                 312JI3 Those regulailnm ore not intended tr^
                                                                                         arbltiarlly deny ctnpkiyment or pirunoilon u
                     -   ^   •   ^


           3 U J I Ellcibilltf. Knncitlien>wif Ihe United
                                                                ^   ^   "   "   ^
                                                                                         iHberwlu eligible and' qualified retaii\Ti of
           Sfsus who hftve been nccnjd^ (grAnied) pennt-                                 (uinbargBining employees.
           aenr re^idenc alien &taius'Ih ihe United Stntn sre
                                                                                         312.32 Oeflnltlon*.
           eligible for appointment m all Pottat Service pa^l-
           tiuDs, levels EJbS-\9 and below, except podilwu
           deiifnaied^kfy'lhe Poiial Service as r^/UrrtfeiNa-                            J I 2 J 2 I Poital Manaittr. An employee with the
           livei of'American Stmoa ind-tHc Nonhem                                        vested or delecaied authority to hire, employ, or
           NljiKiIrui Islands arc eilgn)l|C.-r(Slr appointment io                        promote Individuals, cv effectively to reeantmend
           ill      Povui            Sarvlce   pcoUldnt.   Appointment              of    individuals for lucti Action*.
           nonciti'/cin to pu^to'ns in levfi^ EAiS-SO and
           sbove, or lo pyiitfoni deilgnated as i t n i b i v t j i J ^ ^                 JI2J22 FtonttrgaMnt £mpleytt. Any «mplO)-«e
           be made ooK with itie prior approvaL^fthc                                      permanenilv or teinporartly In ihe tiA^ ntarv
           appropriate RPMG or appropriate i(rMG H                                        sdiedule. or in the PCE.S {Soie: 'Ihli Inciudet nil
           Hes^ariert.                                                                    poual managtn as defined in 312J21.}

           312.22 Qocuineiiittlon..,-'Tlie appointing offker                              JJ3J2J Kilaiivc      An indlvLUuat who ii related
           miui mjke t>\e dei^Hnlnaiion as to whether the                                 (by blood,     marijsfe.    or atloptiun) lu the
           appoltitee Ij a tkften of the United Stam g t e - " "                          noiibargakning employee at rather, mother, gruul-
           lawful pcrrn^jrfnt resident alien by die pcei^stinB                            fafhcr. grindmoilicr, ton. daughter, KranJwn,
           of an 0)HrFortn ID. EmplC^metttptglblUty Ver-                                  gnnddaughter, brother. OsUr. aunt. unck. iiepli-
           ification. Pcrmaneni retUent ajlsfl'sutus requires                             ew. niece, first couiin. huiband, wife. faUicr-
           (he jpjK>ialea to have an iVfen fteclnnilion Re-                               in-iaw.       mother-lit-law.      broLher-ln-Ltw,
           ceipt Cird (Form I-13L<Jr^ 1-551) in addition U)                               ti}ter-in4iw. son-in-law, daughter-In-liw, ftepl4-
           Oltiei' rtquircmenu ;>pe^led on the 0MB 1'9. See                               ther, stepmother, nepbroiber. steptistcr. step*,on.
           Erfilljii i l l 2 2 .                                                          stepdaughter, half brolber or half iluer. (JVLKV:
                                                                                          Whcfl applicaUc. a relationship is dluolved by
            3 l 2 J Aettrtetlons on Emplojmeat of RcEstivcs                               death or divorce.^
            J12J1 Policy.                                                                 iI2J24 NtTt Hlghir A^p^ntt^g Of Ap^o^tai
                                                                                          Authoritf. The MSC MxMger. General Managef.
            J f J j n 5 i : s c 3110 ij applicable to the Posral                          Field Division. Regnnil Postmaster Oeneral, or
            Service (39 USC 4lO(H)(l)j «nd incoi^raiet                                    SAPMG. Human Retourcn Group, as appropri-
            broad resn-ictioru on the empinymeni r>f reixives                             ate. Thil refer* to the next higher organlntional
            by agency oficiili. The rollowing poUsl regul*-                               level.

            -«2-                                                                                                      HwdbOOh e i ^ 1 1 , AprtI IISD
Management Practices tn the Alaska District                                                                            LB-AR-01-019




           l*«n[ifm« Otnratlana                                                                                    SIIPMI


            3IZJ3 Regulatory Pravblnna.                                   c Functional dlrtcton {or Iheir equivsleoi)
                                                                     at ihe MSC, divtslon. tx region are tonildered to
            H 2 J H A lumbargalnlng employee may noi:                exacise enough Jurisdiction or control over their
                                                                     le&pecilve MSCi, divutons. or fcgioni to be sub-
                a. Rccommrnd the hiring, employmem. or               ject 10 these Tequlnmenis. Persons reporting di-
            promotion of a relative, or                              rectly lo funaional directors who ala[> meet the
                b. loierfer* with the lelection proceis in any       dcllnltioa of poiMt manaiier are alio Included.
            manner that may benefit a rrlaiive. or                   Other ponaf managrrs may al*n he considered to
                c. Show any expmnlnn of intereu that may             ejieitiic JurhdictiOTi or control for puiposct of
            be iSlniCrocd M iin impropriety.                          this ssLtion. Conmih the nen higbcr level of
                                                                      management In any quHtlonable cue.
            J I 2 J J 7 A. pusin] [Turmjet inav not hicc, employ.
            L>r viOi\\(}\t:                                          3/2JJ5 ExamyU$:
                  a A lehih'e; oc                                        a. An sitociaie office panma.\tDr's son is
                   (». The r(Uliv< Of any nonbarasliilni em-         wlihJn reach for appolnimeni frimi itie Clerk-
            ployee. If tt>e relatKe wni Improoerly recom-            Currier cegl^ter At tlie umn associaid office. Pou-
            mended to the manager in viulatiun of these              ridslct's mny not .ippaint their kOns. lo ttte file Is
            rcgulatioin. (If an improper recommendation ia           forwsrdrd wltttnut rcLOmmendailon id the .MSC
            received, ibe postal manager mv^t forwaid the            Manager for declfiion. as ttMiuired fry 3l2.334a,
             file SI in JI2.3>lft, including dilckQure of the             D. A dh'Lsion general manager's daughter h
             improper rrcDinmendaiioi].)                             wittiin resch for nppotntmcni from the Clerk-
                                                                     Carrier refiitcr nt ttn installntlon rirUhIn the ume
            3l3.i3i Any iwnhargaining employee who vio-              division. (The installation head H not -d.iicd to
            lates IhctC rcgiiUilionS. or titiH to mnhe prO|>er       the division genersl managei''H rinughiEr.) The Itt-
            dLsclOAure. unluLi exrepied hy .^12.34, will ht sub-     siallntion head may leni^tiiely select the divhion
            ject to dluriplltuiry ,ictinn including remnvtil. Any    gCAcral m.inflger'N daughter, pending iipprC^-al of
            perwnnel ,ictlnD effected in violation of these           the region, ai required by 3l2.J34b.
            legulAiion^ t£ subject tn cancellntion. or othai
            apptoprlaie action.                                            c. An .MSC director'! wife Is within reach for
                                                                      appolntnuni at an auiKlate office within (he
             J12334 If a postal managtf'i [«lativ« iv within          same MSC, Since MSC dirccto«l cusinnwrlly hn>e
             rcjvh for appointment or priMnoiion Lunsuler-            the delegated autlKtrily to hire, employ. prtHnnte,
             atiun tu n piuiliun in an inttsllaiioo in or Over        or rtcommcnd MKb actkonit. they are consUcred
             which that posul inaiuger exeiclses any jurhdlC'         postttt manngfrt ai defined In .112-321. Thertfote.
             ^K>n Ol' ;onuoi, the complete file (e.g., hltlng         the KtWCiate office pn^tma^ter (wtKi U iwt rclatal
             a%irk4tieei. pronxiitgn tile. Ail relate documents,      to Ihe MSC director's wife) may tentatively ulect
             aitd n full descilpKcii) or ilie family relmonshlp)       the MSC director's wife subject TO prior rCvic>v
              mtitt ne foi'w^rded to tlie nert higher Duitviniy        and written approval of the itCxl hjglicf [evd
             over the piistiit manajtr at fallows:                     luthnrlty, the General Manager, FKid Dlvl&lon.
                  a. If ihe appointment or promotiun is pro-          313 J 4 Except loni.
             hibited by 3l2J)32. the complete flic is forwarded
             nithuut tvcummcndaiiun. The next higher level
             iiultHirlly muii deieimina whether to mal:e Uie          3i2.Ut Prtftrtatx EllgUtn. The appointment of
             Appolntnwni or piomotlort.                               R prefereiuc eligible relative 'a permitted without
                                                                      higher Ic^'Cl spprovai if:
                  ^. If the appointment nr promntlnn IE mtt
              prnhlhltcd hy ^l3.,13^ And a relative nf a pnMal            a. The preference eligible it wtihin reach
              miTLiger i\ to tie Bpiv>lnted or prnmoted, the          (aimng the Itiree highcu rated) for qclecilon
              complBie file Is forwarded with recoftimendlTlon        from an Approprlau register or ellglbkl. and
              TO the next ttighei level .luitiorliy lor rtvicw and        b. An alternate salectlan canrwt be made
              approval. The appointing ofncial mv%\ incline in        from the regiuer withuut passing over the pr«r-
              ;he file a aiaiement iluii rto improper Influence in    erence etigibia uatl jclecl')ng an individual who is
              violation of 312.J has been exerted- The 5ctian         noi a prvfcrctKc eligible. Tliii exception would
              may not ':te effected urtil (he recommendation          apply only if the teUlive woe ihe only pref-
              hiA been appri>ved in writing.                          erence eligible within reach for appointment. The

              HandeMk EL-JII, April tMO                                                                                 -SI-
Management Practices In the Alaska District                                                                                          LB-AR-01-01 g




          31^341                                                                                              Ptftomtn Ofwruiana


          (election must be reported to Lhe next higher
          level of manigemcttt.
                                                                       313.52 Cerlfdcatlan of R » i s ( U U o n S t s i u i .

                                                                       JJ2.52I Doeumtntajjla^. Appointing officers must
                                                                                                                                           c
           J I 2 J 4 2 Bmirgeaeitt. Vr'hen neces.ury to mret           make n deiermliAiuMi as to trtteiber msle tp*
           urgent need^ reuiliing from on emergency po:slng            plicanis bori\/«'fter Decemtwr 3 1 , 1 9 5 9 , , « ^ regis-
           an immedinie threat to life, n u l l Mcurhy, pouat          leied witii>4fic Selective Serviira Sy^t«f^ o r e n m p t
           property, or the mlwkin of the Pmtnl Seavkce, an            trom tbeVegisirauon requirem^Dfby the process-
           initallatkin head may make appointments nf rdn-             I n j ; ^ Form 2591-.^, ApgHiam's S t a i t m n t of
           tivev Immedi.ite nntiflcntion to ihe lext higher            SelectiiT S<r-^icr RcgitirsMt Siaait ( i « exhibit
           level ot mAnagenwnt ^ required. Appolnlitienu               31232J. In lieu of FpTm 2591-A applictnti may
            m;id( utidei the cmurgency condlliont will be              submit s copy of t W r acknowledgement lectar or
           noncaitcc and will DDI normnlly cicecd 1 month              other proof of rpgtiitraiinn nr eyemptkin iuued by
           in durJtdon but may be extended for a second                Ihe VSS. AppHf^nu m u u sign and date lhe docu-
           month if me need still exiw. ^tensioni be>'ond              meni(i) Kpnmlned (uidng inic) and add..* rote
           } month may fre made only with the prior ap-                .uating^allol It is (ubmltied as [>roo(,jdr Selective
           l>tov>l ut th« DivlHO!\ Manager. Employment and             Serv}» negl^tmilon Sisinis (or i^j^Apdon). Form
           f>evctopincnt.                                               2391-A or uther proof s u b m ^ d is rstained with
                                                                        Ihe applicant's Form 1 5 9 ^ AppilaaioH for Em-
           i l 2 j 4 3 FoiVttttSiir Kelli/7Lttv€ Rtfilaemums.           pioymAm. SiaiemenB .^ef reglufiiion itsttit need
           Prohibitions regarding employment of relatives               not be requested pi5ra former postal employees
           appiv to noiKsiccr p o s t m a « e r relieMcave re-          or current or i d i m c r federal service employees
           placemtfr>ts at EA.S-11. E A S - 1 3 . and EAS-15 pott       when die bmlvldusri of^clal personnel folder
           oiriccs- This rtisuiction does nut apply to                  c o n t s i t u ^ c o f n p l e t e d Form 2391-A ur utht;r ^p-
            nodCtfccr pustniMUr relicf.lKive replacements at            proF           L'umentstiun.
            E A S A - E offices.                                                                                 .fC
                                                                        J t 2 J 2 2 Ver^jilng R t f t u m f p / f SHUut. An a p -
            M2.34^ Stiilor Qualified. The promotion of a                plicant's regliuation ^it^tdi can be veilfled by
            relative to a tnrgainlng.unh position filled by tb<         conticting the SSS idft free telephone number
            irfiii'f miollfied bidder or applicant in accordance         l-SOO-621-5388. ^ " ^
            with th« prui-islom of the appropriate collecU%'e*                                                                             v..
            bargaininE^ agreement(s) need not be forwaidcd to           312J23      AiS^nc&nit in the targeted age group
             the n c ^ higher approving a^iihoriiy.                     who t i A ^ ^ provide the Infnrmaiinn rei)i«^ted on
                                                                        iheiciffegUtrfttInn uatus will be cnnslder^d-Tnot
                                                                        Avnllable" and will receive no f u r t t i p r l n r n l d e r -
            311.15 5 L'SC 33L9. $ USC m ^ . *li'<c(t tcuficis
                                                                        ailon for employment.              .••'*
            the cinptnyineitt of nxire than 1 members i.vl' a
            family in fhe competilii-e scivice. doei r o i apply
                                                                        312.53 AppIlcutM t ^ t R n f i l e r e d .
            to the Postal Set-vice. T t ^ r e is no lesitlctlon on
            the numt>er of [Wrsom in o family who nuiy be
            em)>lnyed by the Postal Service.                            J J 3 . 5 J / A p p ^ f l ) ^ Vadtr 26 tMd Not Rtftsur^d.
                                                                        Appo]niltiy^<rfriclnti musi idvlae applicants In ttiis
            312.4 Rcild«nci Requl;eifi«iiu     Ap^jiicaiiun^wfl)        c a t c g o ^ ^ ) Ibat they are Ineligible for appolni-
            be accepted foi^^^awions in the Po)W(t''^rvice              m e n t ' ^ i i u s e of their failure to regisljtJwhh the
            without X ' C ^ A ^ a itiidence reqiiifemtni unless         SSS In accordance with Section 3.of t h e Mlllury
            one Is spe:(iiN«d by an cxaittUxKlan annouticenieni         Selective Service Aci, (2) (hai..jt^i nanrer -'ill he
            or .t*ti!ction proiiram.  .,--^                             placed uct llie imiciivs r f g i u o ' . (3] ;.':JC :; ..iey
                                                                        later provide proof qt-tegistratlun or exemption
             3L2.SSclecth-a Service RtjjtvTrailon R«^Hi^e^lM^L          slatuG, ihcir ilflmorwill be restorsid to the active
                                                                         te^lsicc ir l^tfwf eligibility ^svuM not o i h ^ w l t e
                                                                         have exp^feti, .md (4) timi ihcy cun n^gHter with
             3 l 2 . s t Policy. TcH^e eligtblc for appointment to       the J S a At iheit local Poo. O f f L c e ^ consular
             a position In cm Postal Ser^'Jce malu"t>orn after           ofjift if outside Ihe United S i a r t C
             D c t w n b e r , i l 7 t M 9 must, suWeef'to cenam ex-
             cep»i».tn>/te reglitcred witlj.i*ffc Selective Service      3 J 2 J 3 2 A p p t l n m t 2 ^ 0 ^ V Y t r and .Vol fttghured,
             Syitjin (SSS) in occort^p^e with SccHon ^ of the            Appotnting officials must advlM applicants in
             Mifiwr>' Selective Sep><e Act.                              wi-itlnp that (1) thev ,ire Ineligible rot appoint-

                                                                                                         Harataooh • L ' l n . Apifl IBM
